 OFFICE OF AUDIT
 REGION 2
 New York/ New Jersey




    City of Elizabeth, New Jersey Did Not Always
   Administer Its Community Development Block
   Grant Program in Accordance With Regulations




2012-NY-1011                           August 15, 2012
                                                        Issue Date: August 15, 2012

                                                        Audit Report Number: 2012-NY-1011




TO:            Anne Marie Uebbing, Director, Office of Community Planning and Development,
                                                  Newark Field Office, 2FD



FROM:          Edgar Moore, Regional Inspector General for Audit, New York / New Jersey
                                                                   Region, 2AGA


SUBJECT:       The City of Elizabeth, NJ, Did Not Always Administer Its Community
               Development Block Grant Program in Accordance With Regulations


Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG’s), final results of our review of the City of Elizabeth, NJ’s
Community Development and Block Grant Program.

HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

If you have any questions or comments about this report, please do not hesitate to call me at 212-
264-4174
                                            August 15, 2012
                                            The City of Elizabeth, NJ, Did not Always Administer Its
                                            Community Development Block Grant Program in
                                            Accordance With Regulations



Highlights
Audit Report 2012-NY-1011


  What We Audited and Why                                        What We Found
We audited the City of Elizabeth, NJ’s Community               City officials did not always
Development Block Grant (CDBG) program in support of           administer the City’s CDBG
the U.S. Department of Housing and Urban Development           program in accordance with
(HUD), Office of Inspector General’s (OIG) goal to             Federal regualtions and CDBG
contribute to improving HUD’s execution of and                 program requirements.
accountability for its fiscal responsibilities. We selected theSpecifically, CDBG funds were
City after completing a risk analysis of CDBG grantees         expended for ineligible and
administered by the HUD Newark, NJ, field office. This         unsupported costs, program
assessment considered funds received, HUD’s risk               income was not properly
assessment score, and program information reported in          recognized and used, liens were
HUD’s Integrated Disbursement and Information System.          not imposed on assisted
The objective of the audit was to determine whether City       properties, and subrecipient
officials established and implemented adequate controls to     monitoring and compliance with
ensure that the City’s CDBG program was administered in        other program requirements were
accordance with Federal regulations and CDBG program           not adequate. These conidtions
requirements.                                                  existed because of weaknesses in
                                                               the City’s financial and
  What We Recommend                                            administrative controls and
                                                               officials’ unfamiliarity with
We recommend that the Director of HUD’s New Jersey             program regulations.
Office of Community Planning and Development instruct          Consequently, (1) $399,093 was
City officials to (1) reimburse the City’s CDBG line of credit expended on ineligible costs, (2)
from non-Federal funds for ineligible expenses of $399,093, $193,774 was expended on
(2) provide documentation to support expenditure of            unsupported costs, (3) program
$193,774, and if such documentation cannot be provided,        income of $263,938 may not have
reimburse the City’s CDBG line of credit from non-Federal been realized, (4) program income
funds, (3) provide documentation to enable HUD to              of $606,460 was not reported and
determine whether the City was entitled to program income made avaliable for eligible CDBG
of $263,938, (4) reimburse the CDBG line of credit for         eligible activities, (5) HUD’s
unreported program income of $606,460, (5) impose liens or interest in two assited properties
other appropriate notices of record on two real properties     totaling more than $4.2 million
assisted with more than $4.2 million in Federal Funds to       was not protected, and (6)
ensure that the HUD’s and the City’s interest is adequately    officials did not adequately
protected, and (6) strengthen internal controls to ensure that monitor subrecipients and comply
the City’s CDBG program is administered in accordance          with program administrative
with Federal regulations and program requirements.             requirements.


                                                  2
                            TABLE OF CONTENTS


Background and Objectives                                                     4

Results of Audit
      Finding 1: Weaknesses in Financial and Program Controls Resulted in
                 Ineligible and Unsupported Costs                             5

      Finding 2: Weaknesses in Program Controls Caused Program Income Not
                 Not to be Realized                                           9

      Finding 3: Weaknesses in Administrative Controls Caused Noncompliance
                 With CDBG Program Requirements                               13


Scope and Methodology                                                         16

Internal Controls                                                             18

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use          20
B.    Auditee Comments and OIG’s Evaluation                                   21




                                            3
                     BACKGROUND AND OBJECTIVES

The Community Development Block Grant (CDBG) program was authorized by Title 1 of the
Housing and Community Development Act of 1974 (Public Law 93-383) to provide
communities with resources to address a wide range of unique community development needs.
The program provides grants on a formula basis to entitled States, cities, and counties to develop
viable urban communities by providing decent housing, suitable living environments, and
expanding economic opportunities, principally for low- and moderate-income persons. Grantees
have flexibility to develop their own programs and funding priorities. However, to be eligible
for CDBG funding, a grantee’s activity (other than program administration and planning) must
meet one of the CDBG program’s three national objectives to (1) benefit low- and moderate-
income persons, (2) aid in preventing or eliminating slums or blight, or (3) address a need with a
particular urgency that poses a serious and immediate threat to the health and welfare of the
community for which other financial resources are not available to meet such needs.

The U.S. Department of Housing and Urban Development (HUD) awarded the City of Elizabeth,
NJ, more than $2 and $2.2 million in CDBG funds in program years 2009 and 2010,
respectively. The City Department of Planning and Community Development administers the
program for the City. Department officials annually awarded $600,000 of their funds to a
subrecipient, the Elizabeth Development Corporation, a nonprofit organization, to carry out
different economic development activities including acquisition, rehabilitation, and construction.

The objective of the audit was to determine whether City officials established and implemented
adequate controls to ensure that the City’s CDBG program was administered in accordance with
Federal regulations and program requirements.




                                                4
                                 RESULTS OF AUDIT


Finding 1: Weaknesses in Financial and Program Controls Resulted in
           Ineligible and Unsupported Costs
City officials expended CDBG funds for ineligible and unsupported costs. Specifically, $399,093
was incurred for activities ineligible for CDBG assistance, and costs of $193,774 lacked adequate
support to determine that they furthered program objectives. This condition occurred because City
officials did not establish adequate financial and program controls to provide assurance that CDBG-
funded activities administered directly by the City or through its subrecipients complied with
program regulations. Consequently, funds available for eligible activities were reduced, and City
officials could not adequately assure HUD that costs incurred were for eligible activities.


 Ineligible Loans

               Elizabeth Development Corporation officials authorized a $20,000
               microenterprise loan to an entity that did not qualify for such a loan. Section 102
               (a)(22) of the Housing and Community Development Act of 1974, as well as the
               City’s economic development policy, defines a microenterprise entity as a small
               business with five or fewer employees. In this case, the entity approved for the
               loan had 16 employees and, therefore, did not qualify under the City’s definition
               as a small business. Consequently, the loan represented an ineligible use of
               CDBG funds. This noncompliance occurred due to lax oversight during the loan
               approval process. When we advised City officials of this condition, they obtained
               reimbursement from the subrecipient, thus ensuring that these funds would be put
               to better use.

               In July 2007, Elizabeth Development Corporation officials also authorized a
               $150,000 direct loan from CDBG program income to a commercial enterprise for
               economic development activity that did not comply with the Corporations’s
               underwriting requirements as detailed in its general lending policy, a board of
               directors resolution, and its direct loan commitment letter. Specifically, the loan
               was granted despite the fact that the Corporation did not obtain proof that the
               borrower had disbursed the funds; the borrower provided tax returns for only 1 of
               the 3 years required; and the loan commitment was not accepted until June 17,
               2007, although it was to have been accepted on or before April 28, 2007. Further,
               although required by the loan provisions, annual personal income tax returns for
               the loan guarantees and annual corporate financial statements prepared by a
               certified public accountant were not provided. Additionally, while the borrower
               defaulted on the loan, which was guaranteed by three guarantors, in July 2009,
               Corporation officials neither enforced the unlimited continuing guarantee
               executed by the three guarantors nor initiated legal action against the borrower, as
               authorized, when the loan was 90 days past due. Therefore, CDBG funds of
                                                 5
             $150,000 were disbursed for an ineligible loan and, thus, were not available for
             other eligible loans. We attribute this deficiency to inadequate monitoring of the
             City’s subrecipient.

Ineligible Costs

             City officials used $45,000 in CDBG funds to reimburse the City’s general fund
             for ineligible CDBG costs, which were originally authorized and paid from the
             City’s general fund account. Contrary to 2 CFR (Code of Federal Regulations)
             Part 225 Appendix A, (C) basic guidelines (c), which provides that costs must be
             authorized to be allowable, these costs were not authorized as eligible CDBG
             costs. We attribute this deficiency to the City officials’ unawareness that these
             costs were initially approved to be paid from the City’s general fund account.
             Once City officials were made aware of this condition, they reimbursed the City’s
             CDBG program, thus ensuring that the $45,000 would be put to better use.

             Elizabeth Development Corporation officials funded a reserve account with
             $23,647 in CDBG program income earned from rent from a CDBG-assisted real
             property. Regulations at 2 CFR Part 230, Appendix (B) selected items of cost (9)
             contingency provisions, prohibit the use of funds for a contingency reserve unless
             required by contract. In this case, no such contractual requirement was
             documented. Consequently, Corporation officials erroneously reserved and did
             not report $23,647 as program income in HUD’s Integrated Disbursement and
             Information System. We attribute this deficiency to City officials’ unfamiliarity
             with HUD regulations.

             Corporation officials expended $15,666 on relocation and entertainment and other
             personal costs that were unallowable. Regulations at 24 CFR 570.606(b)(2)
             provide that CDBG funds can be used for relocation of a displaced entity, which
             is an entity that is relocated permanently and involuntarily as a direct result of
             rehabilitation, demolition, or acquisition for an activity assisted. However, the
             Corporation’s move was reportedly made to save rental costs and, therefore,
             would not qualify as a displaced entity. In addition, regulations at 2 CFR Part
             230, Appendix (B) selected items of cost (14), (16) and (19) provide that CDBG
             funds cannot be used to pay for goods or services for personal use, entertainment,
             or fines. We attribute this deficiency to City and Corporation officials’
             unfamiliarity with HUD regulations and inadequate monitoring of the Corporation
             by the City. City officials acknowledged these ineligible expenses and provided
             cancelled checks to document that the City received $15,666 from the
             Corporation for the costs prior to the exit conference.

             City officials awarded $364,330 to the Corporation to conduct a feasibility study
             to construct a new office for the Corporation. Of that amount, $144,780 was used
             to pay operating and administrative costs incurred by the Corporation and
             appraisal and architect or consultant costs. However, the $144,780 was expended
             before the City completed an environmental review and submitted a request for

                                              6
             release of funds. Regulations at 24 CFR 58.22(a) prohibit commitment of CDBG
             funds on development activity until HUD or the State has approved the recipient’s
             request for release of funds and the related environmental certification from the
             responsible entity. This deficiency occurred because City officials overlooked the
             environmental review process. In addition, the proposed development was later
             canceled because local businesses objected, citing the negative impact the loss of
             parking space for shoppers would have on their businesses if the Corporation
             constructed its new office on the site.

Unsupported Costs

             Documentation was inadequate to support $193,774 in payroll and operating
             expenses associated with the Corporation. Corporation officials did not provide
             adequate and complete documentation, including general ledgers, vendors’
             invoices, employee payroll and summary time-sheet reports, and canceled checks
             to support the use of CDBG program funds. Although regulations at 2 CFR Part
             230, Appendix (A) general principles (A) basic consideration, require costs to be
             adequately supported and the City’s accounting policy provided that requests for
             payments needed to be adequately supported to be an allowable cost, adequate
             support was not provided. Therefore, there was no assurance that the $193,774
             was used for eligible and reasonable CDBG expenses. We generally attribute this
             deficiency to weaknesses in the City’s financial management and subrecipient
             monitoring controls.

Conclusion

             The City’s and its subrecipient’s officials expended $592,867 in CDBG funds for
             ineligible and unsupported CDBG costs. We attribute these deficiencies to officials’
             unfamiliarity with HUD regulations and inadequate monitoring of the City’s
             subrecipient. As a result of these deficiencies, $399,093 was unavailable for other
             eligible CDBG activities, and the City could not adequately assure HUD that
             $193,774 was expended for allowable costs.

Recommendations

             We recommend that the Director of HUD’s Newark, NJ, Office of Community
             Planning and Development instruct City Officials to

             1A. Provide documentation showing the repayment of the ineligible $20,000
                 microenterprise loan to ensure that these ineligible amounts were
                 reimbursed to the CDBG program.

             1B. Reimburse the City’s CDBG line of credit from non-Federal funds for the
                 $150,000 ineligible loan.


                                              7
1C. Provide documentation showing the repayment of the $45,000 repaid from
    the City’s general fund to ensure that these ineligible amounts were
    reimbursed to the CDBG program.

1D. Reimburse the City’s CDBG line of credit from non-Federal funds for the
    $23,647 expended to fund an ineligible contingency reserve.

1E. Reimburse the City’s CDBG line of credit from non-Federal funds for the
    $15,666 expended for subrecipient relocation and entertainment costs.

1F. Reimburse the City’s CDBG line of credit from non-Federal funds for the
    $144,780 expended for a feasibility study before the City conducted an
    environmental review and requested approval for the release of the funds.

1G. Strengthen internal control procedures to ensure compliance with all CDBG
    requirements and cost allowability before disbursing CDBG funds.

1H. Provide adequate documentation to support the $193,774 in Elizabeth
    Development Corporation payroll and operating expenses and if such
    documentation cannot be provided, reimburse the City’s CDBG line of credit
    from non-Federal funds.

1I.   Strengthen internal control procedures to ensure that adequate and complete
      supporting documentation is obtained and maintained before reimbursing the
      City subrecipients for eligible CDBG costs.




                                 8
Finding 2: Weaknesses in Program Controls Caused Program Income
           Not To Be Realized
City officials did not report and remit to the City’s CDBG line of credit program income realized
from activities previously assisted with CDBG funds as required by regulations. We attribute this
deficiency to City officials’ unfamiliarity with HUD regulations. As a result, $606,460 in program
income was not made available for eligible CDBG program activities, and the City may be entitled
to an additional $263,938 in program income.


    Program Income From
    Property Dispositions Not
    Recognized

                    City officials neither reported nor remitted CDBG program income of $475,339
                    realized from the disposition of CDBG-assisted properties. Regulations at 24
                    CFR 570.505 require that if the use of real property assisted with CDBG funds
                    does not qualify as meeting one of the three national CDBG program objectives,
                    the CDBG program is to be reimbursed in the amount of the current fair market
                    value of the property, less any portion of the value attributable to expenditures of
                    non-CDBG funds for acquisition of and improvement to the property.
                    Regulations at 24 CFR 570.500 further provide that CDBG program income
                    includes proceeds from the disposition by sale or long-term lease of real property
                    purchased or improved with CDBG funds.

                    Specifically, officials of the City’s subrecipient, the Elizabeth Development
                    Corporation, used $400,000 in CDBG funds to purchase a church in 1986 to
                    eliminate slums and bight. However, Corporation officials sold the property to a
                    developer in March 1993 for $470,000 to create a theater to provide performances
                    to the community at a nominal fee. The property was purchased with $10,000 in
                    cash and a $460,000 CDBG loan with a 1 percent annual interest rate. The theater
                    was not successful and closed in May 2004, and the developer sold the property to
                    another developer for $1.35 million on December 21, 2004. While City officials
                    had attached a lien to the property in December 1988, the lien was discharged in
                    February 2005, so the first developer was able to sell the property to the second
                    developer unencumbered. City officials did not claim any CDBG program
                    income realized from the net gain on the sale, which we estimate to be $531,079.1
                    Consequently, this amount was not available to fund eligible CDBG activities.
                    We attribute this deficiency to City officials’ unfamiliarity with regulations
                    related to recognition of program income and inadequate oversight.


1
  We estimated the City’s share of program income to be $531,079 by subtracting outstanding loan balances, owner equity and
contribution, and other fees of $720,759 from the $1.35 million sale price, which totaled $629,241. We then multiplied that
amount by 84.4 percent, which represented the City’s percentage contribution to the initial property value of $545,000, resulting
in a total of $531,079.

                                                                9
                     At the exit conference City officials provided documentation to support an
                     alternative calculation of program income that results in program income of
                     $267,141 rather than $531,079. While there is merit to this calculation, it may
                     not be the most reasonable because it does not account for the risk to the CDBG
                     funds by assuming that the CDBG loan and non-CDBG sources carried the same
                     annual rate, and thus risk. Further, the funding sources used to repay the CDBG
                     and non-CDBG sources were not documented in the files; therefore, these
                     documents supporting that investor equity was used to repay the loans needs to be
                     provided. However, acknowledging the City officials' comment that HUD rules
                     and regulations do not provide for clearly defined guidance for selective financial
                     transactions, we have revised the audit report to reduce the unreported and
                     unremitted program income as $267,141 as proposed by the City officials and
                     reclassify the difference of $263,938 as unsupported.

                     Corporation officials also purchased four properties with $839,012 in CDBG and
                     Neighborhood Initiative Grant funds in 2003 and 2005 to construct a mixed-use
                     residential and commercial project with assistance from the Housing Authority of
                     the City of Elizabeth. In March 2006, Corporation officials transferred ownership
                     of the properties to the City, and in September 2009, City officials transferred
                     ownership to the Authority. In June 2010, the Authority sold the properties to the
                     205 First Street Urban Renewal LP for $300,000, of which $208,1982 should be
                     considered as CDBG program income associated with the four real properties.
                     However, City officials did not record or remit this CDBG program income. We
                     attribute this deficiency to the City’s inadequate monitoring of its subrecipient.
                     Therefore, $208,198 in CDBG program income was not available to be used for
                     eligible CDBG program activities.

    Rental Income From Assisted
    Property Not Recognized

                     City officials did not collect rent from a CDBG-assisted property, thus not
                     recognizing program income. Regulations at 24 CFR 570.500 provide that
                     CDBG program income includes gross income from the use or rental of real
                     property, owned by the recipient or a subrecipient, that was constructed or
                     improved with CDBG program funds, less costs incidental to generation of the
                     income. However, City officials had not charged rent—and, therefore, not
                     recognized associated program income—to the commercial space used by the
                     Corporation. We attribute this deficiency to City officials’ unfamiliarity with
                     CDBG program requirements. Therefore, the City did not realize program
                     income that should have been generated from the use of the commercial space,
                     and this income was not remitted to the City’s CDBG line of credit to be used for
                     eligible CDBG activities.

2
  The City’s share of program income was estimated to be $208,198 by multiplying the sales proceeds of $300,000 by the square footage (71.4
percent) associated with four of the five properties that were CDBG assisted, which yielded $214,200 as the four CDBG-assisted properties’
share of the proceeds. Then $6,002, representing non-CDBG funds used to purchase the property, was subtracted from the $214,200, yielding a
total of $208,198.

                                                                    10
Program Income From CDBG
Loan Repayment Not
Recognized

             City officials did not report or remit to the CDBG line of credit CDBG program
             income of $131,121 associated with the repayment of a CDBG loan. Regulations
             at 24 CFR 570.500 provide that CDBG program income includes payments of
             principal and interest on loans made using CDBG funds. In addition, City
             officials used these repayment proceeds to make a housing construction loan to a
             housing developer without recording the loan in HUD’s Integrated Disbursement
             and Information System. Regulations at 24 CFR 84.21 require that CDBG
             recipients maintain a financial management system that provides accurate,
             current, and complete records of financial results and that the results identify
             adequately the source and application of funds for federally sponsored activity.
             By not recording this loan as a CDBG activity, the City could not assure HUD
             that the future loan repayment of $131,121 would be recorded as CDBG program
             income in HUD’s Integrated Disbursement and Information System and would be
             remitted to the City’s CDBG line of credit. This deficiency occurred because of
             City officials’ unfamiliarity with HUD regulations and weaknesses in controls
             over the reporting of program income.

Conclusion

             City officials did not recognize, record in HUD’s Integrated Disbursement and
             Information System, or remit $870,398 in program income to the City’s CDBG line
             of credit. The CDBG program income was realized upon the disposition of real
             property previously assisted with CDBG funds and repayment of a loan previously
             made with CDBG funds. We attribute this condition to City officials’ unfamiliarity
             with HUD regulations. Consequently, these funds were not available to assist other
             CDBG eligible activities.

Recommendations

             We recommend that the Director of HUD’s Newark, NJ, Office of Community
             Planning and Development instruct City Officials to

             2A. Reimburse the City’s CDBG line of credit $ $475,339 from non-Federal
                 funds for the unreported ($267,141) and unremitted ($208,198) in program
                 income from the sale of the theater and four properties; and record these
                 reimbursements in HUD’s Integrated Disbursement and Information System
                 as CDBG program income.




                                             11
2B. Provide doucmentation to enable HUD to determine whether the City is
    entitled to additional program income of $263,938 from the dispositon of
    the Church property.

2C. Record in HUD’s Intergrated Disbursement and Information System the
    $131,121 loan executed with program income, thus ensuring that HUD’s
    interest in this loan will be protected.

2D. Provide documentation to establish a fair market rent for the commerical
    space occupied by the Elizabeth Development Corporation or justify the
    basis for not charging rent. If no justification is provided, any past rent that
    should have been charged, as well as any future rental income, should be
    collected and remitted to the City’s CDBG line of credit.

2E. Develop and implement internal controls to ensure that CDBG program
    income is recognized, recorded in HUD’s Integrated Disbursement and
    Information System, and remitted to the City’s CDBG line of credit as
    required by CDBG program requirements.

2F. Establish controls to ensure that commercial rents of CDBG-assisted
    properties are set at market rates or if lower, that the rental charge is
    justified.




                                 12
Finding 3: Weaknesses in Administrative Controls Caused
           Noncompliance With CDBG Program Requirements
City officials’ administration of the City’s CDBG funds did not always comply with program
requirements. Specifically, City officials did not (1) impose liens or deed restrictions on two real
properties assisted with CDBG and Neighborhood Initiative Grant funds, (2) always conduct
required monitoring of subrecipients or ensure that the subrecipients had implemented
recommended corrective action, and (3) always request city council approval or City citizen
participation when substantial amendments were made to the City action plan. We attributed these
deficiencies to City officials’ unfamiliarity with program requirements and weaknesses in program
administration. Consequently, HUD’s and the City’s $4.2 million interest in the assisted properties
was not protected, and HUD could not be assured that subrecipients complied with CDBG program
requirements and substantial amendments to the City’s annual action plans were properly
authorized.


    Liens Not Recorded on Real
    Properties Assisted With CDBG
    and Neighborhood Initiative
    Grant Funds

                  City officials provided more than $4.2 million in CDBG and Neighborhood
                  Initiative Grant funds to the Elizabeth Development Corporation for two real
                  properties. Regulations at 24 CFR 84.37 provide that HUD may require
                  recipients to record liens or other appropriate notices of record to indicate that
                  personal or real property has been acquired or improved with Federal funds.
                  Further, the City’s CDBG subrecipient agreements required that any real property
                  purchased by a subrecipient financed by the City be subject to a mortgage held by
                  the City. While Corporation officials were provided more than $1.4 million for
                  the acquisition and rehabilitation of property formerly known as the United
                  County Trust Building and more than $2.79 million3 for the acquisition and
                  construction of property located at 205-215 First Street, Elizabeth, NJ, liens were
                  not recorded on the properties.

                  This deficiency occurred because City officials did not properly monitor the
                  City’s subrecipients to ensure that the subrecipients were aware of, and complied
                  with, CDBG program requirements. Therefore, (1) HUD’s and the City’s interest
                  of more than $4.2 million was not protected against any future disposition of the
                  properties, thereby providing no assurance that proceeds from selling the two
                  assisted properties would be returned to the CDBG line of credit, and (2) rental


3
  City documents disclosed that more than $3 million was used to acquire four real properties for construction of the
205-215 mixed-use project, developing the commercial space of the project, and preparing the space for the
Elizabeth Development Corporation business. However, the $3 million was reduced by costs already questioned in
findings 1 and 2. Therefore, the amount of the lien should be around $2.79 million.

                                                         13
                  income associated with the use of real property constructed with CDBG funds had
                  not been remitted to the City’s CDBG line of credit.

    Inadequate Monitoring of the
    City Subrecipients

                  City officials did not adequately monitor the City’s subrecipients because a risk
                  analysis of subrecipients and monitoring were not conducted with the prescribed
                  frequency and the City did not always follow up to ensure that recommended
                  actions to correct deficiencies were implemented by the subrecipients.
                  Regulations at 24 CFR 570.501(a) provide that grantees are responsible for
                  determining the adequacy of subrecipient performance and taking appropriate
                  action when performance problems arise.

                  The City’s annual action plan required that every subrecipient receive an annual
                  monitoring and that the Elizabeth Development Corporation be monitored
                  quarterly. In addition, the City’s monitoring policy required City officials to
                  conduct fiscal monitoring of all subrecipients annually and that the fiscal
                  monitoring include analysis of vouchers and budgets, examination of journal
                  entries and the general ledger, review of relevant bank statements, review of
                  source documentation, and analysis of internal controls. However, during CDBG
                  program year 2009 (July 1, 2009, through June 30, 2010), annual monitoring was
                  performed on only two of the City’s 37 subrecipients, one of which was the
                  Corporation, which should have been monitored quarterly. During CDBG
                  program year 2010, the City did not monitor any of its subrecipients. In addition,
                  City officials did not ensure that corrective action was taken in response to
                  deficiencies noted during the monitoring that was conducted. These deficiencies
                  occurred because City officials did not adhere to the City’s monitoring policy.
                  Therefore, City officials could not assure HUD that the City’s subrecipients
                  complied with CDBG program requirements.

    Lack of City Council Approval
    and Citizen Participation

                  City officials reallocated $378,725 of the City’s CDBG program year 2009 funds,
                  representing more than 20 percent of that initially reported, without an amended
                  city council resolution and citizen participation as required. Regulations at 24
                  CFR 91.505(b) provide that a grantee must identify in its citizen participation plan
                  the criteria it will use to determine what constitutes a plan’s substantial
                  amendment, which is subject to a citizen participation process.4 The City’s
                  citizen participation plan provided that any increase or decrease in an adopted
                  activity amounting to 20 percent or more of the original allocation and any

4
 Citizen participation provisions require that the City provide citizens with reasonable notice and an opportunity to
comment on substantial amendments by publishing the amendments not less than 30 days before submission to
HUD.

                                                         14
             addition or deletion of published activities in their entirety would be a substantial
             change requiring an amendment. Further the City’s subrecipient agreements
             required that any reallocation of funds exceeding 20 percent of the total amount of
             funds under contract would require city council approval. These deficiencies
             occurred because City officials were not aware of the substantial changes or
             amendments made to the City’s program years 2009 and 2010 action plans and
             did not amend the City’s action plan for program year 2010 to correctly report the
             City’s economic development activities.

Conclusion

             City officials did not impose liens on real properties assisted with CDBG and
             Neighborhood Initiative Grant funds, properly monitor the City’s subrecipients,
             always properly report amendments to the City’s action plan or correct errors in
             previously approved action plans. As a result, HUD’s and the City’s interest in
             the more than $4.2 million provided to CDBG- and Neighborhood Initiative
             Grant-assisted properties would not be protected if the properties were sold, and
             City officials could not assure HUD that the City’s subrecipients complied with
             CDBG program requirements and that the City’s annual action plans properly
             reported City activity.

Recommendations

             We recommend that the Director of HUD’s Newark, NJ, Office of Community
             Planning and Development instruct City Officials to

             3A. Record liens or other appropriate notices of record on the two real properties
                 assisted with CDBG and Neighborhood Initiative Grant funds to ensure that
                 HUD’s and the City’s $4,205,735 interest in these properties is adequately
                 protected so that these funds would be reimbursed to the program upon
                 disposition of the properties. If liens are not recorded, City official should
                 reimburse the City’s CDBG line of credit the more than $4.2 million from
                 non-Federal funds.

             3B. Strengthen subrecipient monitoring procedures to ensure that monitoring
                 reviews are conducted, recommended corrective action is implemented, and
                 an annual subrecipients’risk analysis is performed as required by the City’s
                 monitoring policy.

             3C. Strengthen administrative procedures to ensure compliance with citizen
                 participation requirements and the city council’s approval process before
                 amending previously approved CDBG-assisted economic activities.




                                              15
                        SCOPE AND METHODOLOGY

The audit focused on whether officials of the City established and implemented adequate
controls to ensure that its CDBG program was administered in accordance with CDBG program
requirements.

To accomplish our objectives, we

       Reviewed relevant CDBG program requirements and applicable Federal regulations to
       gain an understanding of CDBG administration requirements.

       Interviewed staff from the HUD Newark, NJ, Office of Community Planning and
       Development, the City’s Department of Planning and Community Development
       (grantee), and the Elizabeth Development Corporation (the City’s major subrecipient) to
       further our understanding of the City’s CDBG program.

       Obtained an understanding of the City’s management controls and procedures through
       analysis of the City’s responses to management control questionnaires.

       Reviewed the City’s consolidated annual performance and evaluation reports and action
       plans for CDBG program years 2009 and 2010 to gather data on the City’s expenditures.

       Reviewed the City’s and the Corporation’s audited financial statements for the fiscal
       years ending June 30, 2009 and 2010, to further our understanding of the City’s programs
       and identify any issues for follow-up.

       Analyzed reports from HUD’s computer systems, including the Integrated Disbursement
       and Information System, to document City disbursements and activities. Our assessment
       of the reliability of the data in these systems was limited to the data sampled, which was
       reconciled to the City’s records.

       Reviewed the City’s organizational chart and the City’s and Corporation’s policies,
       including the City’s economic development, monitoring, procurement, and accounting
       policies, as well as the Corporation’s general lending policy.

       Reviewed subrecipient agreements between the City and the Corporation.

       Reviewed city council resolutions for CDBG program years 2009 and 2010.

       Reviewed the City’s monitoring reports of its subrecipients for CDBG program years
       2008 and 2009.

       Selected a nonstatistical sample of more than $1.1 million in CDBG drawdowns,
       representing approximately 24 percent of total drawdowns of more than $4.8 million, for

                                               16
       program years 2009 and 2010. We later extended the sample to include an additional
       $526,760 from four drawdowns made before and after CDBG program years 2009 and
       2010 to include economic development activities that were canceled or had a very slow
       progress rate. The total selected drawdowns of more than $1.6 million were associated
       with 14 CDBG activities. For the sampled items, we reviewed documentation supporting
       the amount drawn down, such as vendor invoices, contractor requests for payment, City
       and Corporation employee payroll data, canceled checks, bank statements, and general
       ledgers. The samples were not selected statistically, and, therefore, the results of our
       review cannot be projected to the universe.

       Reviewed documentation included in case files associated with the 14 CDBG activities to
       determine whether officials from the City and the Corporation followed CDBG program
       requirements and Federal regulations when establishing and carrying out the 14 activities.
       The samples were not selected statistically, and, therefore, the results of our review
       cannot be projected to the universe.

The audit generally covered the period July 1, 2009, through June 30, 2011, and was extended as
needed to accomplish our objective. We performed our audit fieldwork from November 2011
through April 2012 at the City’s Department of Planning and Community Development.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective(s).




                                               17
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 18
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                    The City did not establish or implement adequate internal controls to ensure
                    that CDBG funds were expended on only eligible and supported costs (see
                    finding 1).

                    The City did not establish or implement adequate internal controls to ensure
                    that the City’s CDBG program was administered in accordance with CDBG
                    program requirements and Federal regulations (see finding 2 and 3).




                                              19
                                      APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation                          Unsupported      Funds to be put
                      Ineligible 1/
     number                                  2/           to better use 4/
             1A              $20,000
             1B              150,000
             1C               45,000
             1D               23,647
             1E               15,666
             1F              144,780
             1H                              $193,774
             2A                                                  $475,339
             2B                                263,938
             2C                                                   131,121
             3A                                                 4,205,735
                            $399,093         $457,712          $4,812,195

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If HUD implements the recommendation to report and
     remit program income of $475,339 the funds will be available for eligible CDBG
     purposes, and if HUD implements the recommendation to record the unreported loan,
     $131,121 will be made available for eligible CDBG purposes when the loan is repaid.
     Also, if liens are recorded, HUD’s more than $4.2 million interest would be protected,
     thus ensuring that the funds would be available for other CDBG-eligible activities.


                                             20
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2



Comment 3




Comment 4




Comment 5



Comment 6




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 7




Comment 8




Comment 7




Comment 9




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 9




Comment 10




Comment 7




Comment 11




Comment 7




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 12




Comment 13




Comment 7




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         26
Ref to OIG Evaluation   Auditee Comments




                         27
                         OIG Evaluation of Auditee Comments

Comment 1   City officials agreed that the $20,000 loan was ineligible and took corrective
            action to recover the amount of the loan from the City’s subrecipient; however,
            City officials need to show that they have reimbursed the City’s CDBG line of
            credit for the recovery.

Comment 2   City officials are seeking repayment of the $150,000; however, City officials need
            to reimburse the City’s CDBG line of credit for the amount of the ineligible loan.

Comment 3   City officials took corrective action to reimburse the CDBG bank account for the
            unauthorized use of $45,000 of CDBG funds; however, they need to show that the
            City’s CDBG line of credit was credited with the recovery.

Comment 4   City officials agreed to request the subrecipient to return as program income any
            net funds after incidental costs. In addition, City officials will request HUD’s
            approval to use these funds as a reserve so that the building could be self-
            sustaining. Nevertheless, City officials need to show HUD that they have
            reimbursed the City’s CDBG line of credit.

Comment 5   City officials took corrective action to recover from the subrecipient the $15,666
            expended on ineligible costs; however, City officials need to show that they have
            reimbursed the City's CDBG line of credit for the amount of the recovery.

Comment 6    City officials acknowledged that $144,780 was expended before conducting an
            environmental review as required. Therefore City officials need to reimburse the
            City's CDBG line of credit for this expenditure.

Comment 7   City officials’ planned actions are responsive to the recommendation.

Comment 8   City officials requested that this recommendation be dismissed due to the aging of
            the projects, citing Federal standards that provide for records retention for three
            years and noting that the costs questioned were incurred before that timeframe
            and outside the scope of the audit. However, City officials have not yet closed-
            out this project activity in IDIS, and regulations at 24 Code of Federal regulations
            Part 570.490 provide that documentation associated with the grant be maintained
            for three years after close-out. Further, the audit scope was reported as generally
            covering the period July 1, 2009, through June 30, 2011, and was extended as
            needed to accomplish our objective. Therefore, if City officials cannot provide
            supporting documentation for the unsupported $193,774, the City's CDBG line of
            credit should be reimbursed for this amount from non-federal funds.

Comment 9   City officials acknowledge that the City has not recovered its fair share of
            program income; however, they believe that $531,079 is not a true representation
            of the unreported and unremitted program income associated with the disposition

                                             28
               of the subject property because (1) all sources invested in the property have not
               been accounted, and (2) investor equity earned as a result of repayment of the
               loans was not considered. Considering these factors, City officials calculated
               unreported and unremitted program income to be $267,141.

              OIG acknowledges there is merit to these considerations; however, disagrees that
              the calculation is the most reasonable because other sources invested in the
              properties were primarily non-CDBG funds that carried annual interest rates at
              least four times that of the CDBG loan’s annual interest rate, and these loans plus
              the interest due were paid upon disposition of the property. Therefore, allocating
              program income to these non-CDBG sources may not be reasonable because it
              does not account for the risk to the CDBG funds by assuming that the CDBG
              loan and non-CDBG sources carried the same annual rate. Further, the funding
              sources used to repay the CDBG and non-CDBG sources were not documented in
              the files; therefore, these documents supporting that investor equity was used to
              repay the loans needs to be provided.

              Therefore, acknowledging the City officials' comment that HUD rules and
              regulations do not provide for clearly defined guidance for selective financial
              transactions, we have revised the audit report to reduce the unreported and
              unremitted program income amount to $267,141 as proposed by the City officials
              and reclassify the difference of $263,938 between that and our original
              calculation as unsupported program income pending HUD's review of additional
              documentation to support that the investor’s equity was the only source of funds
              used to repay the CDBG and non-CDBG loans and a determination as to whether
              program income generated from the disposition should be allocated to the non-
              CDBG funding sources.

Comment 10 City officials dispute any obligation to classify as program income and reimburse
           the $208,198 from the disposition of the 205 First Street project properties
           because the project and the financing structure had received HUD's approval and
           the property remains devoted to social services, an eligible activity. While the
           project did receive approval from the HUD Office of Public Housing as an
           eligible activity, approval was not obtained from the Office of Community and
           Development Planning, which may have different requirements for what is an
           eligible activity. Therefore, we maintain our position that City officials need to
           reimburse the City’s line of credit and record CDBG program income for the
           $208,198.

Comment 11 City officials agreed to impose and collect a fair market rent; when received, City
           officials need to reimburse the City's CDBG line of credit for the rental income.

Comment 12 City officials action taken to draft legal documents to record liens representative
           of the total Federal dollars invested in the properties is responsive to the
           recommendation; once recorded, a copy of the liens should be submitted to HUD
           for review.

                                               29
Comment 13 City officials stated that the City's monitoring policy did not require on-site
           review of the subrecipients, and that desk reviews would comply with the policy.
           OIG review of the City's monitoring policy concluded that desk reviews would
           not be sufficient to comply with City’s subrecipeint annual fiscal monitoring
           policy which was to include an analysis of vouchers and budgets, examination of
           journal entries and the general ledger, review of relevant bank statements, review
           of source documentation, and an analysis of internal controls (i.e. checking
           approval authority and guidelines for controlling expenditures). Therefore, we
           maintain that City officials did not conduct annual fiscal monitoring of
           subrecipients as required by the City's monitoring policy.




                                             30
